Audit Report




OIG-10-008
Management Letter for Fiscal Year 2009 Audit of the
Federal Financing Bank’s Financial Statements


November 12, 2009




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 12, 2009


            MEMORANDUM FOR GARY BURNER, CHIEF FINANCIAL OFFICER
                           FEDERAL FINANCING BANK

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009 Audit of the
                                  Federal Financing Bank’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Federal Financing Bank’s (FFB) Fiscal Year 2009 financial statements.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of FFB as of September 30, 2009, and for the year then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting and its operation that was identified during the audit but was not required
            to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits, at
            (202) 927-5407.

            Attachment
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




November 9, 2009

Inspector General, U.S. Department of the Treasury, and the Board of Directors, Federal Financing Bank:

We have audited the financial statements of the Federal Financing Bank (the Bank) for the year ended
September 30, 2009, and have issued our report thereon dated November 9, 2009. In planning and
performing our audit of the financial statements of the Bank, in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended, we considered the Bank’s internal control over financial reporting (internal
control) as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s
internal control. Accordingly, we do not express an opinion on the effectiveness of the Bank’s internal
control.

During our audit, we noted a matter involving internal control that we present for your consideration. This
finding and related recommendations are summarized in Exhibit I. They have been discussed with the
appropriate members of management, and are intended to improve internal control or result in other
operating efficiencies.

We also provide in Exhibit II the status of the findings and recommendations included in our letter arising
from the fiscal year 2008 audit.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and, therefore, may not bring to light all deficiencies in policies or procedures that may exist. We aim,
however, to use our knowledge of the Bank gained during our work to make comments and suggestions
that we hope will be useful to you.

The Bank’s response to our finding and recommendations has not been subjected to the auditing
procedures applied in the audit of the financial statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, the Office of
Management and Budget, and the U.S. Congress, and is not intended to be, and should not be, used by
anyone other than these specified parties.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                                                                                                 Exhibit I

                                       Federal Financing Bank
                                    Finding and Recommendations
                                          September 30, 2009



Interest Credits on the Cushion of Credit Accounts

In prior years, the Federal Financing Bank (Bank) purchased certificates of beneficial ownership (i.e.,
loans reported as loans receivable on the statement of financial position) from the Rural Utilities Service
(RUS), a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank
to issue loans to nonfederal entities, specifically private utility companies. In 1987, Congress passed
legislation (i.e., 7 USC Sec. 940c - Cushion of Credit Payments Program) that required RUS to develop
and promote a program to encourage private utility companies to voluntarily make deposits into cushion
of credit accounts established within RUS. The legislation also indicated that a private utility company
may reduce the balance of its cushion of credit account only if the reduction is used to make scheduled
payments on loans received from RUS. In accordance with the legislation, the private utility companies
accrue interest at a rate of 5% per annum or the weighted average rate of the certificates of beneficial
ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also indicated
that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS pays to the
private utility companies.

RUS calculates the interest credit on a spreadsheet based on the daily cash balances maintained in the
credit of cushion accounts and provides the calculation spreadsheet to the Bank monthly. The Bank
reviews, recalculates, and records the interest credit in the Bank’s general ledger on a monthly basis. In
our review of the Bank’s interest credit calculation we noted the following:

•   The Bank did not adequately review the June/July monthly calculation spreadsheets submitted by
    RUS, as it did not compare the July beginning cash balance to the June ending cash balance and thus
    did not identify that the June ending cash balance used in the calculation was understated by more
    than $135 million. The interest credit calculation for the month of June did not take into account
    deposit and withdrawal activity that occurred on the last day of the month and RUS did not include
    the effects of such activity in the July calculation.

•   The Bank did not request adequate supporting documentation from RUS to perform an effective
    review of RUS’s monthly submission of the credit of cushion interest calculation, as the Bank did not
    request the Government-Wide Accounting statements to support the cash balance and monthly
    activity used in the calculation.

As a result, the interest credit for the month of June was understated by approximately $43 thousand.
Ineffective review of the interest credit calculations could lead to overstatement or understatement of the
Bank’s interest income.

Recommendations

We recommend that the Bank strengthen the review of the interest credit calculation, as follows:

•   Request RUS to include supporting documentation, such as the Government-Wide Accounting
    statements, with RUS’s monthly submission of the interest credit calculation to the Bank.



                                                    2
                                                                                                Exhibit I

•   Compare all data inputs from the interest credit calculation to supporting documentation, including
    the Government-Wide Accounting statements.

•   Compare the current month’s beginning deposit balance to the prior month’s ending deposit balance
    included in the interest credit calculation.

Management’s Response

Management concurs with the finding and recommendations. Management indicated that a process is
currently under way to strengthen the review of the interest credit calculation and such process should be
completed in fiscal year 2010.




                                                    3
                                                                                         Exhibit II

                                     Federal Financing Bank
                                   Status of Prior Year Findings
                                       September 30, 2009




             Prior Year Findings                                   Current Year Status

1. System Development Methodology and               This comment has been corrected.
   Configuration Management Plan

2. Outdated LMCS Oracle Database Management         This comment has been corrected.
   System

3. Password Requirements                            This comment has been corrected.




                                                4
